Memorandum No. D2010-RAM-012       July 7, 2010





        American Recovery and Reinvestment Act 

         Project—Repairs at Naval Operational 

           Support Centers in Charlotte and 

              Greensboro, North Carolina

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FAR                           Federal Acquisition Regulation
NAVFAC                        Naval Facilities Engineering Command
NOSC                          Navy Operational Support Center
OMB                           Office of Management and Budget
ORCA                          Online Representations and Certifications Application
PWD                           Public Works Department
QMAD                          Quantitative Methods and Analysis Division
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202--4704



                                                                          JUL     7 2f110


MEMORANDUM FOR NAVAL INSPECTOR GENERAL
              COMMANDING OFFICER, NAVAL FACILITIES
                 ENGINEERING COMMAND MID-ATLANTIC


SUBJECT: American Recovery and Reinvestment Act Project- Repairs at Naval
         Operational Support Centers in Charlotte and Greensboro, North Carolina
         (Memorandum No. D2010-RAM-012)

We are providing this report for your irrformation and use. We performed this audit in
response to the requirements of Public Law 111-5, "American Recovery and
Reinvestment Act of2009," February 17, 2009. We considered management' s response
to a discussion draft of the report when preparing the final report. No additional
comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Timothy Wimette at (703) 604-8876 (DSN 664-8876).




                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
 Memorandum No. D2010-RAM-012 (Project No. D2010-D000LH-0064.000)                        July 7, 2010
                              (Project No. D2010-D000LH-0065.000)

               Results in Brief: American Recovery and
               Reinvestment Act Project—Repairs at Naval
               Operational Support Centers in Charlotte and
               Greensboro, North Carolina
What We Did                                              Department at Naval Air Station Oceana, Virginia,
                                                         had no comments on the discussion draft report
Our overall objective was to evaluate DOD’s
                                                         and agreed with our results and conclusions. We
implementation of Public Law 111-5, “American
                                                         do not require any formal comments.
Recovery and Reinvestment Act of 2009,”
February 17, 2009. Specifically, we determined
whether Navy personnel adequately planned,
funded, executed, tracked, and reported
Projects RM204-08 and RM203-08, to repair
Navy Operational Support Centers (NOSCs) in
Charlotte and Greensboro, North Carolina, to
ensure the appropriate use of Recovery Act funds.

What We Found
We determined that Projects RM204-08 and
RM203-08 were justified and met the Recovery
Act goals regarding accountability and
transparency. Personnel at the Naval Facilities
Engineering Command Mid-Atlantic and the                 The lavatory at NOSC Charlotte needs repairs.
Public Works Department at Naval Air Station
Oceana, Virginia, planned, funded, executed, and
had procedures in place to track and report the
projects as required by the Recovery Act and
implementation guidance.

Although the contracts for both projects initially
omitted required Federal Acquisition Regulation
clauses, and one contract omitted a Federal
Acquisition Regulation solicitation provision,
contracting personnel subsequently issued
contract modifications to include these clauses
and this provision.

What We Recommend                                         The heating, ventilation, and cooling system
This report contains no recommendations.                     at NOSC Greensboro needs repairs.

Management Comments                                            Photos courtesy of NAVFAC Mid-Atlantic

                                                                       Public Works Department

The Public Works Officer, Naval Facilities
Engineering Command Mid-Atlantic Public Works


                                                     i
Introduction
Objective
Our overall objective was to evaluate DOD’s implementation of Public Law 111-5,
“American Recovery and Reinvestment Act of 2009” (Recovery Act), February 17, 2009.
We reviewed the implementation of the DOD Recovery Act plans at the Service and
installation levels to determine whether Navy personnel managed individual projects to
achieve the accountability and transparency goals of the Recovery Act. Specifically, we
determined whether personnel at the Naval Facilities Engineering Command (NAVFAC)
Mid-Atlantic and the NAVFAC Mid-Atlantic Public Works Department at Naval Air
Station Oceana, Virginia, (the PWD) adequately planned, funded, executed, tracked, and
reported Projects RM204-08 and RM203-08 for repairs to Naval Operational Support
Centers (NOSCs) in Charlotte, North Carolina, and Greensboro, North Carolina, to
ensure the appropriate use of Recovery Act funds. See the appendix for a discussion of
the audit scope and methodology related to the audit objective.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

DOD received approximately $6.8 billion1 in Recovery Act funds to be used for projects
that support the Act’s purposes. In March 2009, DOD released expenditure plans for the
Recovery Act, which list DOD projects that will receive Recovery Act funds. The
Department of the Navy received $1.928 billion in Recovery Act funds for Operations
and Maintenance; Military Construction; and Research, Development, Test and
Evaluation. Table 1 provides specific funds allocated to each appropriation.




1
  The $6.8 billion does not include $4.6 billion for the U.S. Army Corps of Engineers or $555 million for
the Homeowners Assistance Fund.
                                                     1

Table 1. Department of the Navy Program-Specific Recovery Act Appropriations
                   Appropriations                     Amount (millions)
 Operations and Maintenance                                  $916
 Military Construction                                        937
 Research, Development, Test and Evaluation                    75
   Total                                                   $1,928

Of the $1.928 billion appropriated, the Department of the Navy allocated approximately
$2.36 million (Operations and Maintenance) and $2.84 million (Operations and
Maintenance) to repair NOSC Charlotte and NOSC Greensboro, respectively. Both
projects consist of repairs to the roof; interior heating, ventilation, and air conditioning
components; doors and windows; ceilings and flooring; and lavatories.

The NOSCs in Charlotte and Greensboro provide operational, training, and
administrative support for the Navy Reserve mission to provide mission-capable units
and individuals to the Navy’s active duty Component during peacetime and war. In
addition to accommodating full-time command and administrative staff, the facilities
accommodate reservists during drill weekends. NOSCs generally include space for
administrative support, medical facilities, unit areas, a drill hall, and a vehicle
maintenance facility.




                                              2

NOSC Charlotte
We determined that Project RM204-08 for repairs to NOSC Charlotte met the goals of
accountability and transparency as provided in the Recovery Act. The project was
justified, and personnel at NAVFAC Mid-Atlantic and the PWD planned, funded, and
executed the project in order to achieve the goals of the Recovery Act. In addition, PWD
personnel had procedures in place to track and report the project as required by the
Recovery Act. Although the contract initially omitted five Federal Acquisition
Regulation (FAR) clauses required by implementation guidance for the Recovery Act,
contracting personnel subsequently modified it to include the clauses.

Planning
Personnel at the PWD appropriately planned the project, which we determined to be
justified. According to planning documents, NOSC Charlotte was constructed in 1988,
and the mechanical and electrical systems and other building components are nearing the
end of their service life, resulting in unsafe and poor working conditions. The planning
documents stated that the facility will remain functional without the repairs, but will
require significant effort to address various deficiencies, such as repairing the roof and
lights.

PWD personnel developed a detailed cost estimate and an economic analysis for the
project. The economic analysis identified possible alternatives to building repairs, such
as status quo, leasing, and construction. Based on the economic analysis, PWD personnel
concluded that a repair, renovation, and modernization mix was the most cost-effective
method to provide safe and up-to-date working conditions at NOSC Charlotte.

Although personnel at the PWD adequately justified and appropriately planned the
project, we noted that the cost estimates on DD Form 1391 were significantly higher than
the cost of the contract. DD Form 1391, dated June 2008, estimated the project costs at
approximately $8.0 million, whereas NAVFAC Mid-Atlantic awarded the contract in
October 2009 for approximately $2.4 million. However, PWD personnel attributed these
cost differences to market conditions at the time of contract award. The contract award
amount was comparable to that of a similar project for repairs to a NOSC in Raleigh,
North Carolina.

Funding
Navy personnel distributed Recovery Act funds to the project in a timely manner, and the
funding documents properly identified a Recovery Act designation. NAVFAC
Mid-Atlantic awarded the contract for approximately $5.7 million less than estimated in
DOD’s expenditure plan for Recovery Act projects. Funding documents showed that the
Commander, Navy Region Mid-Atlantic transferred funds to NAVFAC on
September 30, 2009, and NAVFAC Mid-Atlantic awarded the contract on
October 22, 2009.




                                            3

Execution
NAVFAC Mid-Atlantic adequately performed initial execution of the project. In our
evaluation of the initial project execution, we determined whether the contract was
competitively solicited and awarded with full transparency, and whether it contained the
FAR clauses required by implementation guidance for the Recovery Act.

Contracting personnel at NAVFAC Mid-Atlantic awarded the contract competitively at a
firm-fixed price of approximately $2.36 million in October 2009, one month earlier than
the milestone set by DOD’s expenditure plan for the Recovery Act. Using sealed bidding
procedures, contracting personnel at NAVFAC Mid-Atlantic issued the solicitation
competitively as a small business set-aside. Seventeen companies responded and
MV Momentum Construction, LLC won the contract by submitting the lowest bid. At
the time of our review, MV Momentum Construction, LLC was a certified small business
and had registered on the Central Contractor Registration Web page as required by FAR
subpart 4.11, “Central Contractor Registration.” In addition, the Excluded Parties List
System did not show MV Momentum Construction, LLC as a debarred contractor.

Contracting personnel properly recorded contract actions to facilitate full transparency.
Office of Management and Budget (OMB) Memorandum M-09-15, “Updated
Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
April 9, 2009, describes requirements for reporting Recovery Act-funded actions in the
Federal Procurement Data System and publicizing actions on Federal Business
Opportunities. Contracting personnel properly reported the contract award in the Federal
Procurement Data System and announced the solicitation and award on the Federal
Business Opportunities Web site.

The contract originally omitted five FAR clauses; however, contracting personnel
subsequently modified it to include these clauses. Contracting personnel at NAVFAC
Mid-Atlantic incorporated most of the FAR clauses required by the Recovery Act,
including those for whistleblower protection, reporting, the Davis-Bacon Act, and the
Buy American Act. However, we identified five missing contract clauses required by
FAR Part 23, “Environment, Energy, and Water Efficiency, Renewable Energy
Technologies, Occupational Safety, and Drug-free Workplace.” FAR part 23 prescribes
policies and procedures for protecting and improving the quality of the environment.




                                            4

According to OMB Memorandum M-09-15, agencies must comply with the requirements
of FAR part 23 when using Recovery Act funds to acquire supplies and services.2 The
contract omitted the following clauses required by FAR part 23:

          FAR 52.223-2, “Affirmative Procurement of Biobased Products Under Service
           and Construction Contracts;”
          FAR 52.223-11, “Ozone-Depleting Substances;”
          FAR 52.223-12, “Refrigeration Equipment and Air Conditioners;”
          FAR 52.223-15, “Energy Efficiency in Energy-Consuming Products;” and
          FAR 52.223-17, “Affirmative Procurement of EPA-designated Items in Service
           and Construction Contracts.”

Without these clauses, Navy officials could not hold contractors accountable for all
Recovery Act requirements or ensure the protection or improvement of the environment.
After we identified this issue, PWD personnel modified the contract to include the five
missing clauses.

Tracking and Reporting
Although repairs at NOSC Charlotte had not started at the time of our review, PWD
personnel had adequate procedures in place to track and report the project. PWD
personnel assigned an engineering technician and a construction manager who will
monitor project schedules, address nonconformances, and ensure the contractor meets
contract requirements.

In addition, contracting personnel reviewed the information reported by the contractor to
ensure the contractor reported required Recovery Act information. FAR
clause 52.204-11, “American Recovery and Reinvestment Act – Reporting
Requirements,” requires contractors for Recovery Act projects to report project
information at http://www.FederalReporting.gov. MV Momentum, LLC submitted
quarterly reports that included total project dollar value, project status, jobs created, and
sub-contract awards.




2
    According to the definition of an acquisition in FAR Subpart 2.101, construction is a service.



                                                        5

NOSC Greensboro
We determined that Project RM203-08 for repairs to NOSC Greensboro met the goals of
accountability and transparency as provided in the Recovery Act. The project was
justified, and personnel at NAVFAC Mid-Atlantic and the PWD planned, funded, and
executed the project in order to achieve the goals of the Recovery Act. In addition, PWD
personnel had procedures in place to track and report the project as required by the
Recovery Act. Although the contract initially omitted five FAR clauses and one
solicitation provision required by implementation guidance for the Recovery Act,
contracting personnel subsequently modified it to include the clauses and provision.

Planning
Personnel at the PWD appropriately planned and adequately justified the project.
According to planning documents, NOSC Greensboro was constructed in 1979, and the
mechanical, electrical, and other building components are at the end of their service life,
resulting in unsafe and poor working conditions. Planning documents stated that the
facility will remain functional without the repairs but will require significant effort to
address various deficiencies, such as repairing the roof and lights.

PWD personnel developed a detailed cost estimate and an economic analysis. The
economic analysis identified possible alternatives to building repairs, such as status quo,
leasing, and construction. Based on the economic analysis, PWD personnel concluded
that a repair, renovation, and modernization mix was the most cost-effective method to
provide safe and up-to-date working conditions at NOSC Greensboro.

Although personnel at the PWD adequately justified and appropriately planned the
project, we noted that the cost estimates on DD Form 1391 were significantly higher than
the cost of the contract. DD Form 1391, dated June 2008, estimated the project costs at
approximately $7.5 million, whereas NAVFAC Mid-Atlantic awarded the contract in
October 2009 for approximately $2.8 million. However, PWD personnel attributed these
costs differences to market conditions at the time of contract award. The contract award
amount was comparable to that of a similar project for repairs to a NOSC in Raleigh,
North Carolina.

Funding
Navy personnel distributed Recovery Act funds to the project in a timely manner, and the
funding documents properly identified a Recovery Act designation. NAVFAC
Mid-Atlantic personnel awarded the contract for approximately $4.7 million less than
estimated in DOD’s expenditure plan for Recovery Act projects. Funding documents
showed that the Commander, Navy Region Mid-Atlantic transferred funds to NAVFAC
on September 29, 2009, and NAVFAC Mid-Atlantic awarded the contract on
October 22, 2009.




                                             6

Execution
NAVFAC Mid-Atlantic personnel adequately performed initial execution of the project.
In our evaluation of initial project execution, we determined whether the contract was
competitively solicited and awarded with full transparency, and whether it contained the
FAR clauses required by implementation guidance for the Recovery Act.

Contracting personnel at NAVFAC Mid-Atlantic awarded the contract competitively at a
firm-fixed price of approximately $2.84 million in October 2009, one month earlier than
the milestone set by DOD’s expenditure plan for the Recovery Act. Using sealed bidding
procedures, contracting personnel at NAVFAC Mid-Atlantic issued the solicitation
competitively as a small business set-aside. Twenty-four companies responded and
HM Kern Corporation won the contract by submitting the lowest bid. At the time of our
review, HM Kern Corporation was a certified small business and had registered on the
Central Contractor Registration Web page, as required by FAR subpart 4.11, “Central
Contractor Registration.” In addition, the Excluded Parties List System did not show
HM Kern Corporation as a debarred contractor.

Contracting personnel properly recorded contract actions to facilitate full transparency.
OMB Memorandum M-09-15 describes requirements for reporting Recovery Act-funded
actions in the Federal Procurement Data System and publicizing actions on Federal
Business Opportunities. Contracting personnel properly reported the contract award in
the Federal Procurement Data System and announced the solicitation and award on the
Federal Business Opportunities Web site.

The solicitation and contract originally omitted five FAR clauses and one provision;
however, contracting personnel subsequently modified the contract to include these
clauses and the provision. Contracting personnel at NAVFAC Mid-Atlantic incorporated
most of the FAR clauses required by the Recovery Act, including those for whistleblower
protection, reporting, the Davis-Bacon Act, and the Buy American Act; however, the
solicitation and contract originally omitted five FAR clauses and one provision required
by FAR Part 23, “Environment, Energy, and Water Efficiency, Renewable Energy
Technologies, Occupational Safety, and Drug-free Workplace.” FAR part 23 prescribes
policies and procedures for protecting and improving the quality of the environment.
According to OMB Memorandum M-09-15, agencies must comply with the requirements
of FAR part 23 when using Recovery Act funds to acquire supplies and services.3




3
    According to the definition of an acquisition in FAR Subpart 2.101, construction is a service.



                                                        7

We found that the contractor did not acknowledge the solicitation provision for
FAR 52.223-13, “Certification of Toxic Chemical Release Reporting” in the Online
Representations and Certifications Application (ORCA). In addition, the contract
omitted the following clauses required by FAR part 23:

      FAR 52.223-9, “Estimate of Percentage of Recovered Material Content for
       EPA-Designated Items;”
      FAR 52.223-11, “Ozone-Depleting Substances;”
      FAR 52.223-12, “Refrigeration Equipment and Air Conditioners;”
      FAR 52.223-15, “Energy Efficiency in Energy-Consuming Products;” and
      FAR 52.223-17, “Affirmative Procurement of EPA-designated Items in Service
       and Construction Contracts.”

Without this provision and these clauses, Navy officials could not hold contractors
accountable for all Recovery Act requirements or ensure the protection or improvement
of the environment. After we identified this issue, PWD personnel modified the contract
to include the missing provision and clauses, and the contractor acknowledged the
solicitation provision in ORCA.

Tracking and Reporting
Although repairs at NOSC Greensboro had not started at the time of our review, PWD
personnel had adequate procedures in place to track and report the project. PWD
personnel assigned an engineering technician and a construction manager who will
monitor project schedules, address nonconformances, and ensure the contractor meets
contract requirements.

In addition, contracting personnel reviewed the information reported by the contractor to
ensure the contractor reported required Recovery Act information. FAR
clause 52.204-11, “American Recovery and Reinvestment Act – Reporting
Requirements,” requires contractors for Recovery Act projects to report project
information at http://www.FederalReporting.gov. HM Kern Corporation submitted
quarterly reports that included total project dollar value, project status, jobs created, and
sub-contract awards.




                                              8

Conclusion
We concluded that Projects RM204-08 and RM203-08 for repairs to NOSC Charlotte and
NOSC Greensboro, respectively, were justified. Personnel at NAVFAC Mid-Atlantic
and the PWD adequately planned, funded, and initially executed the projects in order to
meet the accountability and transparency goals of the Recovery Act. In addition, PWD
personnel had procedures in place to track and report the projects as required by the
Recovery Act and implementation guidance. Although the contracts for both projects
initially omitted FAR clauses, and one contract omitted a FAR solicitation provision,
PWD personnel subsequently modified the contracts to include these clauses and this
provision. Therefore, this report contains no recommendations.




                                          9

Appendix. Scope and Methodology
We conducted this performance audit from October 2009 through June 2010. We
interviewed personnel from NAVFAC Mid-Atlantic and the Public Works Department at
Naval Air Station Oceana, Virginia. We reviewed documentation including the official
contract files, DD Forms 1391, economic analyses, and cost estimates. We reviewed
processes for tracking and reporting Recovery Act projects. We reviewed Federal, DOD, and
Navy guidance, and compared this guidance with our audit results.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System, Central
Contractor Registration, Excluded Parties List System, Federal Business Opportunities,
www.federalreporting.gov, and other systems. However, our use of computer-processed
data did not materially affect our audit results, findings, or conclusions, and the
information we used was obtained from sources generally recognized as appropriate.
Therefore, we did not evaluate the reliability of the computer-processed data we used.

Use of Technical Assistance
Before selecting DOD Recovery Act projects for audit, personnel in the Quantitative
Methods and Analysis Division (QMAD) of the DOD Office of Inspector General
analyzed all DOD agency-funded projects, locations, and contracting oversight
organizations to assess the risk of waste, fraud, and abuse associated with each. QMAD
personnel selected most audit projects and locations using a modified Delphi technique,
which allowed them to quantify the risk based on expert auditor judgment and other
quantitatively developed risk indicators. Initially, QMAD personnel selected 83 projects
with the highest risk rankings. Auditors chose some additional projects at the selected
locations.

QMAD personnel did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, National Guard units, and public works projects
managed by the U.S. Army Corps of Engineers.




                                            10

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                         11

 
 
